No. 20-306

 

 

IN THE

Supreme Court of the United States

ROBERT OLAN AND THEODORE HUBER,

Petitioners,
Vv.

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,967 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 8, 2020.

 

Colin Casey Nogan
Wilson-Epes Printing Co., Inc.
